<html>
<title> - DRUGS AND GANGS IN McHENRY COUNTY</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                   DRUGS AND GANGS IN McHENRY COUNTY
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 1997

                               __________

                           Serial No. 105-86

                               __________

Printed for the use of the Committee on Government Reform and Oversight










                       U.S. GOVERNMENT PRINTING OFFICE
46-769                     WASHINGTON : 1998
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
















              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
              Robert Charles, Staff Director/Chief Counsel
              Sean Littlefield, Professional Staff Member


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 7, 1997.....................................     1
Statement of:
    Cole, Jerome; Derrick Smith; Pam Maakestad; Jerry Skogmo, 
      program director, Renz Addiction Counseling Center; Carlos 
      Chavez, Renz Addiction Counseling Center; and Les Lunsmann, 
      Communities Against Gangs..................................     4
    LeFew, Bill, Communities Against Drugs; Michael Zawadzki, DEA 
      Agent from Chicago; Sheriff Nygren, McHenry County; Gary 
      Pack, State's attorney, McHenry County; William Morley, 
      Assistant Special Agent in Charge of the Chicago Field 
      Office, Drug Enforcement Administration....................    34
    Manzulo, Hon. Don, a Representative in Congress from the 
      State of Illinois..........................................     3
Letters, statements, etc., submitted for the record by:
    Cole, Jerome, prepared statement of..........................     6
    Hastert, Hon. J. Dennis, a Representative in Congress from 
      the State of Illinois, letter dated July 3, 1997...........    00
    Maakestad, Pam, prepared statement of........................    11
    Skogmo, Jerry, program director, Renz Addiction Counseling 
      Center, prepared statement of..............................    14
    Smith, Derrick, prepared statement of........................     9



















                   DRUGS AND GANGS IN McHENRY COUNTY

                              ----------                              


                          MONDAY, JULY 7, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                     Algonquin, IL.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
the Algonquin Village Hall, 2200 Harnish Drive, Algonquin, IL, 
Hon. J. Dennis Hastert, presiding.
    Present: Representative Hastert
    Also present: Representative Manzullo.
    Staff present: Robert B. Charles, staff director/chief 
counsel; and Sean Littlefield, professional staff member.
    Mr. Hastert. This opens our field hearing entitled Drugs 
and Gangs in McHenry County. And I want to first of all welcome 
everybody that's here today and especially thank the Village 
Counsel and President Ted Spella, who generously made the 
facilities here, very nice facilities, for us to use. So thank 
you very much.
    The Subcommittee on National Security, International 
Affairs, and Criminal Justice will now come to order. Today 
we're going to be examining the dire threat of drugs to our 
kids in suburban and rural communities. When residents of these 
areas think of drugs and teens, often the first thing that 
comes to mind is kids in impoverished urban areas being 
victimized by crack dealers and gangs. The suburbs and small 
cities and McHenry and Kane Counties are generally not thought 
of as places where drug abuse is a problem for teens. 
Unfortunately, times have changed and this image is simply no 
longer true. It's a sad fact but a harbinger of our times that 
no young person in any community in America is out of the reach 
of cocaine, heroin, LSD, or methamphetamines. Nor is any 
community immune from the drug violence, street gangs or 
trafficking which accompany the arrival of these poisons in our 
midst.
    Citizens in far northern and western suburban Chicago have 
been shocked in recent years as we continually see the 
encroachment of drugs, drug-related violence and street gangs. 
No longer are we insulated from the problems that we used to 
think were confined to big cities such as Chicago and Detroit, 
and one need only read the recent news stories about the 
seizure of $1 million worth of high grade marijuana in the 
biggest drug bust in McHenry County history which occurred only 
a few days ago to understand the nature of the problem.
    Thanks to the good work of McHenry Country Sheriff Keith 
Nygren, who is here with us today, and undercover agents of the 
DEA, these drugs were prevented from invading McHenry County. 
In neighboring DeKalb County, a predominantly rural area in my 
congressional district, the DeKalb Chronicle recently ran a 
series of articles on drug use among our teens in high school. 
As a parent and a former teacher and a former coach of 16 
years, I feel this problem is devastating and will require an 
effort by all of us to reverse.
    A few examples are illustrative. The results of the ISA 
study on drug use in DeKalb high schools published this year is 
a case in point. They're highly disturbing. Forty percent of 
high school students polled have used marijuana. That's nearly 
half of all the kids in school; 14 percent said they've used 
LSD, 6 percent report using inhalants, 5 percent have tried 
cocaine, and that's 1 in every 20 kids. The saddest part is 
that these aren't just statistics. They're not just numbers. 
These are our kids right here at home. And one more point. 
These kids aren't someone else's kids in someone else's cities. 
They're our kids in our communities. If they're already in 
trouble with drugs now while they're in high school, what's to 
make us think that they will lick the habit later in their 
lives.
    Numerous studies have shown that the earlier a young person 
gets hooked on drugs, the more negative and longer the impact 
of drugs will be on them throughout their lives. The story is 
now the same wherever you go, whether it's DeKalb County or 
McHenry County, DuPage County or the city of Chicago. It's not 
a mystery why drugs and drug-driven crime and gangs have 
invaded our communities, urban, suburban and rural.
    A year ago, on behalf of the U.S. House leadership, I began 
to try to pull together Republicans and Democrats alike that 
are committed to finding real lasting solutions to our Nation's 
drug problems and during the time that I've been involved in 
this effort, I've found that traveling throughout Illinois and 
certainly throughout the United States and, in some cases, 
around this globe, there are people who are trying to solve the 
problems. But basically those folks can't do it by themselves 
and there's no one approach that's the mend all/cure all 
solution.
    I've also constantly looked for solutions to the places 
where these dangerous drugs are produced including the remote 
and dangerous places in South America and Asia. I've learned a 
lot about the nature of the drug problem in America and abroad, 
but one item stands out. Every aspect of drug war is inter-
connected. One aspect hooks on to another like a chain link 
fence and while we've attacked every link, the success or 
failure of our policies in any specific area drastically 
affects the success or failure of our policies in all areas.
    Fortunately, despite alarming trends in youth drug use, 
especially in suburban and rural areas, not all the news is 
bad. We're here today to listen to folks about their 
experiences, how they got involved in drugs, if that's the 
case, or what their solution is. We value you who are 
testifying before us today. We value all like you who are out 
there fighting the war on drugs in our communities and our 
neighborhoods.
    Mr. Hastert. And I'm going to yield to my colleagues, whose 
district we're in this afternoon.
    Mr. Manzullo. Thank you, Congressman.
    Mr. Hastert. Don Manzullo.

  STATEMENT OF HON. DON MANZULO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Manzullo. It's a pleasure to be here this afternoon. I 
have been involved in the study, as it were, of how people get 
involved with drugs ever since 1970 when I started practicing 
law in Noble County. I represented several hundred people who 
have encountered problems with the law because of their 
becoming addicted to drugs. This is a very, very serious 
problem. The nature of it has changed throughout the past 20--
25 years.
    What we do know now, is that drugs are more readily 
available, they're more potent, they're cheaper, and the drugs 
to which today's parents were introduced 15 and 20 years ago 
when they were in high school is nothing compared to the 
quality and the competency of the drugs that are on the market 
today and readily available to their kids. So this is a 
generational problem where one of our goals at this meeting is 
try to inculcate into parents who have kids in school today 
that the drugs of today are not the drugs that were in school 
when they were in school. It's a much more serious and much 
more difficult problem.
    Because of the problem of drugs, the gangs have emerged. 
McHenry County, because it's the fastest growing county in the 
State of Illinois, has also become a haven for drug dealers and 
for gang organizers to come out of nearby Cook County to try to 
come into our peaceful rural county and to try to peddle their 
wares, corrupt our kids, and destroy our culture and quality of 
life in this county.
    Because of the menace of drugs, I joined with Congressman 
Hastert about 2 years ago, the coalition that Denny set up in 
the House of Representatives. We meet approximately once a 
month with some of the most high profile people in the 
government who are tackling the battle against drugs on several 
levels.
    In addition, I assembled the 60th Congressional District 
Anti-Drug Coalition last year to spur regional ideas for 
fighting drug and gang activity across northern Illinois. The 
congressional district that I represent runs from McHenry/Lake 
County line all the way to the Mississippi River. So we have 
over 600,000 people, over 50 high schools, lots of small towns 
that are facing some very scary facts with regard to drugs and 
gangs. The goal of coalition is to fight drug abuse among all 
ages and all communities in our district.
    So we look forward to hearing the testimony of those who 
have been intimately involved in the struggle against drugs 
and, Chairman Hastert, I appreciate your leadership in this 
area.
    Mr. Hastert. Well, thank you for joining me today, and at 
this time I'd like to introduce our first panel. The first 
three witnesses will provide a human face on the war on drugs; 
one is a victim and two have been involved with gangs. All will 
provide insight into the scourge of drugs in rural communities. 
These three witnesses are Jerome, Derrick, and Pam Maakestad. 
Jerry Skogmo is program director for the Renz Addiction 
Counseling Center and Carlos Chavez works with youth prevention 
programs with the Renz Addiction Counseling Center. Les 
Lunsmann has been a leader in heading up the organization 
Communities Against Gangs. I thank you all for being here 
today. In accordance with our House rules, we will swear you in 
and please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
answered in the affirmative. Jerome, would you please start?

STATEMENTS OF JEROME COLE; DERRICK SMITH; PAM MAAKESTAD; JERRY 
  SKOGMO, PROGRAM DIRECTOR, RENZ ADDICTION COUNSELING CENTER; 
   CARLOS CHAVEZ, RENZ ADDICTION COUNSELING CENTER; AND LES 
              LUNSMANN, COMMUNITIES AGAINST GANGS

    Mr. Cole. Hi, my name is Jerome Cole. I know a lot about 
drugs because I used drugs, I sold drugs, and also organized 
groups of people to sell drugs for me. Until recently, I lived 
in an area that had the highest drug use in DeKalb. The 
building I lived in was referred to by the drug task force as a 
haven for drug dealers. Over a 4-year period, I met many drug 
dealers and drug users in the DeKalb area. I saw or took part 
in a lot of drug deals in the DeKalb area. From what I saw and 
what the other dealers told me, we supplied together 
approximately thousands of people with marijuana, cocaine and 
other drugs.
    I know a lot of young kids in DeKalb that's using drugs 
now. They have different names for the drugs now. They call it 
weed, bud, or the most popular name now is chronic. Four years 
ago, a couple of high school students came to me to purchase 
some drugs and I had them sell drugs for me. Also they was 
telling me that they was selling drugs to their parents and 
their parents were smoking marijuana with them.
    Cocaine use has leveled off in the DeKalb area as far as I 
can tell. Acid use is increasing among the skateboarders and 
the ``hippie types.'' Recently in DeKalb people have been 
sprinkling crack cocaine on the blunt. A blunt is a cigar 
that's been hollowed out. The tobacco has been hollowed out. 
It's been replaced by marijuana and when they go on it to get 
an extra high, they put heroin or crack cocaine, they sprinkle 
it on to boost the high.
    Heroin is also being used in DeKalb. I know a couple of 
people in DeKalb who use heroin. They either snort it or the 
hard core users, they pop it or shoot it intravenously. But 
heroin is not sold in DeKalb as far as I know. DeKalb users 
have to drive to Chicago to get their heroin. When the heroin 
high is over, the users are usually in a lot of physical pain. 
Back pains, neck pains, leg pains and different things like 
that.
    Looking at the drug business from the outside, now that I'm 
on the outside, it seems there are only three ways to go. Stay 
away from the drug scene altogether, go to a penal institution 
or you end up dead. I see three types of drug users in my time 
with the inner drug game: The recreational or social user which 
includes respected members of the community, the person who 
goes on periodic binges if they come into some extra money or 
they're really upset or having problems, they may tend to use 
drugs, or the person on the street that's called a ``hype.'' 
That's the person that's got a constant habit and will do 
anything to get the drugs. I've seen many people go from 
smoking pot occasionally to constant use of more serious drugs 
like cocaine and heroin.
    Some police have been more effective in reducing the drug 
problem when they talk respectfully and get to know the drug 
dealers and users and the younger people in the community. 
Local church programs, job programs and youth activity programs 
are also very helpful to reduce drug use.
    Right now I'm a local business manager and I have hired at 
least 25 people to help them stay away from drugs. I've also 
helped organize youth activities locally. I have come into 
contact with approximately 200 to 300 people in these positive 
activities and I think church programs, jobs and sports 
activities keep most kids away from drugs.
    Mr. Hastert. Thank you, Jerome.
    [The prepared statement of Mr. Cole follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Derrick.
    Mr. Smith. I'm Derrick Smith. I'm an academic counselor at 
Northern Illinois University at the Center for Black Studies 
and currently a doctoral student in adult education with 
emphasis on community development.
    This is my testimony. Thirty years ago, I was involved with 
drug dealers and drug users in Chicago. I saw the cycles of 
casual marijuana use turn to cocaine and heroin addiction. I 
also saw a lot of people say no to pot, even though others 
around them were using drugs. Today I work with more than 100 
young people in the DeKalb area. Most of them are near the 
danger zone of drug use. Some of their parents are addicted to 
cocaine or abuse alcohol.
    From my contact with these young people in DeKalb, I 
learned about the drug use that's happening in this community. 
I have seen drug dealers as young as 14 and 15 years old in 
DeKalb. I have talked to five local high school age athletes 
who told me about their use of weed, which is marijuana, 
mushrooms, which is a hallucinogenic drug, and alcohol. I 
talked to some of the drug dealers in DeKalb. Some of the kids 
tell me that pot is OK to use. They don't understand that 
they're opening Pandora's box when they're using pot. They 
don't see the problems that can occur.
    In the DeKalb area, pot is often sold by dealers with 
street gang connections. Stepping into the world of pot brings 
the young person closer to cocaine, acid, gangs, crime, drug 
addiction, and jail. I have seen this cycle happen itself with 
some people in DeKalb. I have also seen young people in DeKalb 
move away from drugs when caring adults have spent time with 
them and told them drugs are not tolerated here. In DeKalb, 
there are church programs, sports programs, and job 
opportunities that have helped kids stay away from drugs. Some 
police have helped reduce drug use in DeKalb by getting to know 
the young people who may use illegal drugs.
    I have a lot of experience and information related to drugs 
and in keeping kids away from drugs. I am available to answer 
questions you may have.
    Mr. Hastert. Thank you, Derrick.
    [The prepared statement of Mr. Smith follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Ms. Maakestad.
    Ms. Maakestad. My name is Pam Maakestad. My son Brent 
Cooper was murdered at age 17 and this is my story. My son 
Brent started using drugs when he was around the age of 12. He 
started off with casual use of pot. He then used it more 
frequently. He started using other drugs such as acid and by 
the age of 14, my son went to a 90 day in-patient 
rehabilitation program. Three to four times a week I drove to 
the drug rehab center in Wisconsin. I went to group counseling 
sessions with my son Brent and others who had become addicted 
to alcohol and marijuana at such an early age.
    Brent did well in the drug rehab program and we learned a 
lot. We learned that each day would be a struggle to stay away 
from the alcohol and other drugs. My son stayed sober for about 
a year and then he started to use drugs again. When he was 15 
years old, he started to use acid and other more dangerous 
drugs. Along with his drug use, he got in trouble with the law 
and also started to hang around with gang members because they 
sold the drugs. He hung around with the dealers and the gangs 
so often that he joined the gang. Many people don't realize the 
connection between casual pot use and street gangs. Even in 
DeKalb County there's a connection between pot and gangs.
    By 16, Brent was back in drug rehab program. Once again, he 
was a model student. He graduated from the in-patient program 
and decided to attend an out-patient counseling.
    At age 17 he was getting his life back together. He was 
trying to stay away from the drug people, but it wasn't easy. 
On August 17, 1991, Brent was shot and murdered near the 
courthouse in Sycamore. He was murdered by a group of people 
who were involved with drugs and gangs at the time he was 
murdered. Even though my son was not using drugs at the time he 
was murdered, it was his past drug use that brought him to the 
place where he was. If it weren't for drugs and gangs, my son 
would be alive today.
    On August 17th it will be 6 years that have passed since 
Brent was murdered. I think of him every day, especially when I 
look at his son who looks so much like him. I especially 
remember one night a few weeks before he was murdered. Brent 
was having a bad reaction to a drug known as Wickie stick. He 
was shaking and trembling uncontrollably. I remember holding 
him in my arms and rocking back and forth until the effects 
wore off, and he accepted that everyone in the family was safe 
and all right.
    Even today I hear about local kids as young as 12 years old 
who use acid and pot. A lot of kids in DeKalb also use alcohol 
which can be more destructive than the illegal drugs.
    I came here today to share my story in order to help other 
families avoid the grief that drugs have brought to my family. 
Drug and alcohol education programs find it hard to compete 
with the example set at home. Many people are afraid to tell 
adults to look at their own drug and alcohol use. The parents 
need the drug and alcohol abuse education, too.
    [The prepared statement of Ms. Maakestad follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Hastert. Thank you, Pam. I'm sorry I mispronounced your 
name before. With a name like Hastert, you really can't afford 
to do that very much.
    Mr. Skogmo.
    Mr. Skogmo. Good afternoon. My name is Jerry Skogmo. I'm 
the executive director of Renz Addiction Counseling Center. 
With me is Carlos Chavez, who is a key prevention specialist in 
our prevention program. Carlos provides outreach preventative 
activities to primarily the Hispanic population in our 
catchment area.
    Renz Center is a community-based nonprofit agency that has 
been in operation since 1961. We now have offices in Elgin, 
which is our main office, Carpentersville, Hanover Park, and 
St. Charles. We provide prevention and treatment of alcohol and 
substance abuse in these and neighboring communities.
    I'll let Carlos comment on the prevention program.
    [The prepared statement of Mr. Skogmo follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chavez. Good afternoon.
    Mr. Hastert. Good afternoon.
    Mr. Chavez. I would like to apologize for my broken 
English.
    Mr. Hastert. Don't apologize.
    Mr. Chavez. Thank you. The Renz Center Prevention Program 
is a comprehensive program that utilizes the five prevention 
strategies: providing culturally sensitive, age appropriate 
information, educating youth and adults, training impactors, 
providing alternative activities, and community mobilization. 
We work collaboratively with a variety of agencies, the 
schools, and individuals to empower people and communities to 
remain healthy and drug free.
    Our prevention staff has spent time implementing needs 
assessments, researching areas/populations, and narrowing down 
risk factors to create programs based on an outcome measurement 
model. Working with this model allows the opportunity to 
measure the impact of the work that we do. The three 
populations that we are focusing on include youth in northern 
Kane County, the School District 300, and Glendale Terrace 
Apartments.
    Prevention programming for the Latino population has also 
become a primary focus for our department. We have two 
bilingual/bicultural prevention specialists who are involved in 
a variety of programs. Because the concept of alcohol and other 
drug prevention is new to the Latino population, our prevention 
specialists have spent time gaining the trust of the community. 
Our programming for the Latino population includes 
presentations to youths and adults, a Latin American Theater 
Festival, a summer soccer league for youth, and a Spanish 
language radio show in conjunction with U-46 school district.
    Other activities that our prevention staff are involved in 
include providing technical assistance to schools and community 
groups, planning and implementing Operation Snowflake/flurry 
events, training high school youth to present health 
information to their peers and younger students and serving on 
a variety of community coalitions, boards, and committees in 
our area.
    Mr. Skogmo. On the treatment side, our outpatient programs 
target both youth and adults. We promote education and 
abstinence and provide counseling to addicts and their 
families. We have also a special program designed for women 
substance abusers and women who are in relationship with an 
addict. We also provide a treatment program for compulsive 
gamblers through funds from the city of Elgin.
    We are seeing disturbing trends in drug abuse with 
adolescents. Marijuana and inhalant usage is increasing 
according to our staff, and there have been but steady 
increases in heroin usage in all of our catchment area, I might 
add, primarily with late teens and early 20's population. In 
addition, alcohol continues to be the most widely abused drug 
and is often accompanied by poly drug abuse.
    We have some funding concerns. There appears to be an 
apparent lack of concern for funding for early intervention 
programs from the State. This type of program is also important 
for those, especially adolescents who have begun to experiment 
with drugs. Also, the State's General Assembly chose not to act 
on a Cost of Doing Business increase for fiscal year 1998. We 
need to continue to sustain and upgrade our programs and our 
professional staff.
    Thank you for the opportunity to present this testimony to 
you. We welcome questions.
    Mr. Hastert. Thank you very much.
    Mr. Lunsmann.
    Mr. Lunsmann. Thank you. I retired recently from law 
enforcement April 1st and for the 8\1/2\ years previous to 
that, I worked undercover narcotics and street gangs generally 
in the McHenry County area but I have worked in DeKalb County 
and Kane County so I'm pretty familiar with the areas out 
there.
    What I found alarming was in the 8\1/2\ years I was there 
the age level of the person we were arresting and sending away 
to prison or into rehab went down. I think one of the youngest 
people I arrested with drugs was 11 years old. I could tell you 
unequivocally that there's not a school in McHenry County grade 
7 and up that doesn't have some kind of drug in it, drug 
activity, gang activity.
    My belief is that the individuals that are working this, I 
commend the county on the marijuana arrest they had last week. 
It was a great job but there needs to be a different set of 
standards set for younger people. We have to come up with some 
kind of program to show the younger people what they're doing 
wrong and not get them involved. If we eliminate the demand, 
the supply is going to go away. We're not going to eliminate 
this demand by arresting 40 year old drug dealers every day and 
still have the 13 year old youth out there that want their 
marijuana that they can pick in the rural fields of McHenry and 
Kane County. We need to get people inside the schools. If it's 
law enforcement, working with the school districts, the 
communities, work together, fight this thing. If we have to put 
some kids in jail to make them realize it's the wrong path 
they're taking. We've got to stop the users from becoming users 
before they are users. The D.A.R.E. programs aren't doing it. 
Operation Snowball is not doing it. It's only touching a minor 
amount of the children out there.
    Nationally, I think the statistic is 3\1/2\ to 4 percent of 
the children are getting involved in drugs and gangs. McHenry 
County is fortunate. It's 1\1/2\ percent, but that's going to 
rise. It's risen every year since we started monitoring ganges 
and drugs in McHenry Country.
    The programs we have in McHenry are great. I think for the 
size of McHenry County and the influx of people coming in, the 
people that are handling the drug activity and the gang 
activity and the counselling are doing a good job, but it's not 
enough. We have to get into youth's heads and get them off the 
drugs and out of the gangs before they start getting into them. 
The programs we have in place, the task force, the meg units, 
the county drug agents, the local drug agents and gang agents 
are doing their job, but I think getting more into the school 
system--I'm not talking about education. I'm talking about with 
counseling for the kids that get arrested and put into 
probation for drug abuse and gang activity. The younger we get 
to them, the better off we're going to be in 10 years from now. 
You'll never know the effect. We don't know the effect that 
D.A.R.E. has had on kids, how many kids they've kept off of 
drugs. There's no statistic to measure that. But you have to do 
something. You can't just keep arresting, cutting the head off 
the snake because there's a lot of snakes out there. You've got 
to get the kids that are buying the dope and go join the gangs.
    Thanks for asking me here to testify.
    Mr. Hastert. Well, thank you very much. We're going to go 
around with questions and may go two rounds of questions, and 
I'm going to defer to my colleague from the 17th Congressional 
District, Don Manzullo, to start questions.
    Mr. Manzullo. Thank you, Denny.
    One of the problems, one of the many problems associated 
with our subject today is a telltale sign that a child is on 
drugs or getting close to drug activity. Pam, you suffered the 
ultimate loss, a child, and you have another child who got 
involved in drugs. Two of your three children. As a mom and 
somebody who I know cares personally about their kids, what 
advice do you have for parents who may think that their kids 
are OK but wake up in the morning and discover that your kid 
has gotten involved in drugs?
    Ms. Maakestad. I believe what needs to be done is that the 
parents need to be given more education or as much education as 
the kids are getting. If I'd known half the things that I know 
now, I may have been able to stop Brent's murder and may have 
kept him from getting into the gangs and kept him from getting 
into drugs. I don't know that, but it's a possibility with the 
signs. After he died, I saw signs and symbols and everything.
    Mr. Manzullo. What were those signs after he passed away, 
Pam?
    Ms. Maakestad. There were signs like gang signs with his 
hats, with his clothing.
    Mr. Manzullo. Explain it yourself. Tell us.
    Ms. Maakestad. His clothing was basically blue and black. 
He's always been a fan--I mean ever since he was a little kid, 
he always liked the color blue. So when he asked for--at 
Christmas time he asked if anybody got him clothes, get him 
blue and black. We never thought anything about it. My 
grandparents, everyone, gave him blue sweaters or blue and 
black scarves or whatever. The baseball hats. He wanted the As, 
Oakland As. Some of the stars, some of the drawings. He was 
very good in drawing. He was all set up to go to school in 
January to be an architect and so he was very good at drawing 
and a lot of his drawings had gang symbols in them and I saw 
the drawings but I didn't realize that they were gang symbols. 
I had no idea because we had never--in Sycamore we had never 
heard about gangs. When Brent was murdered, then it all came 
out and they're still not admitting that it's as bad as it is 
but as far as I'm concerned, I think it's worse than it ever 
was.
    Mr. Manzullo. So something as simple as a favorite color.
    Ms. Maakestad. Favorite colors, drawings on their school 
books or papers, their hats.
    Mr. Manzullo. Hats.
    Ms. Maakestad. Just wearing them to one side or the other. 
The symbolism on their hats. Tennis shoes tied, one side tied, 
the other side not. One cuff of the pant leg up, one down. Same 
way with bib overalls. One side up and one down. All this, I 
didn't know any of this until after he was dead.
    Mr. Manzullo. Let me ask the same question of the 
counselors. Mr. Chavez, I'm sure you relate to what Pam just 
said and Les, if you want add in at this point because I'm very 
much concerned over the fact that parents will have kids 
involved in gangs and not even know it. These are just growing 
up type of things. Kids go through fads. I used to have a 
stocking hat. Regardless of how you put it on, that's how you 
wore it and things of that nature. In any order, what other 
signs or symbols should parents look for if their kids are 
involved in gangs?
    Mr. Lunsmann. The clothing she mentioned is predominantly 
the thing to look for. If your kids are hanging with other kids 
and they tend to all dress in the same color or the same type 
of hats and stuff, that's a good sign. But it's more the way 
the kids act. I think Pam will tell you that your kids act a 
totally different way when they hang around gangs and drugs. 
Their respect factor and everything goes down toward other 
human beings. They only have a certain number of people they'll 
even talk to. But watch for tatoos in discrete places. The 
drawings are atypical. A brand new gang member, somebody that 
just joined a gang, they draw all the literature and stuff for 
that street gang. That's the kind of stuff you look for. The 
mood swings are a big thing.
    Mr. Manzullo. Tell us about the mood swings. Mr. Chavez.
    Mr. Chavez. They tend to be more aggressive. They don't 
listen to the parents the way they should. Another big sign is 
large amount of money. They're carrying always money. It could 
be through dealing drugs at the same time. Another big sign is 
the friends that they have now from the gang. They're not 
introduced to the parents. Now they don't invite the new 
friends to the house and hang around there. So that's a big 
sign that there's something going on with your kid.
    All the activities that he usually liked like basketball or 
anything, they're gone and again, they're more violent. They're 
definitely more violent toward everybody, brothers, sisters, 
parents. They don't want to attend to family activities, 
picnics or anything. They refuse to.
    Mr. Manzullo. Does this take place over a gradual period of 
time so that the parent is sort of lulled into not thinking 
there's a problem?
    Mr. Chavez. Well, I believe that every kid is different and 
every case is different. Sometimes parents, they are not even 
aware because they're not there for the kids or they're busy 
working overtime or they're working different shifts so they 
don't know exactly what's going on at home. But again, it might 
be very slowly changes and then all of a sudden there is a big 
rebellion against the family.
    Mr. Manzullo. Derrick and Jerome, you want to tackle that 
question? What should parents look for to indicate to them that 
their kids may be involved in gang or drug activity? What 
telltale signs are there?
    Mr. Cole. The clothing is probably the more prolific thing, 
the different colors. Like she said, for instance, her son had 
an Oakland As hat. I knew her son. He was a member of the 
Ambrose so that's what the A stands for. You know, different 
gangs like for the gangster disciple, a lot of them will have 
the blue hats with the G on it for Georgetown. A lot of the 
sports logos, you know, different colored college teams, North 
Carolina Tarheels with the blue and the white. Different things 
like that. You see a group of kids with their hats different 
sides, wearing them to the right side or to the left. The 
clothing is probably the first thing you'll notice or different 
scarves. When they start wearing scarves. A red scarf or a gold 
scarf or blue or black scarf. Those are the telltale signs 
that, you know, they've been plugged in in the gang.
    Mr. Manzullo. Derrick.
    Mr. Smith. Yes. I think they just about answered, you know, 
the question because clothing is the main thing and I think far 
as parents, it's more of a gradual thing, you know, because you 
start off and the deeper you get into it, the more aggressive 
your behavior is because that's a way of life in gangs. You 
know, you have to be more aggressive because you might wind up 
and get you a rank and stuff like that and that's what, you 
know, most of the guys who get in gangs are trying to do. Try 
to get leadership roles.
    Mr. Hastert. Thanks, Don.
    Jerome, I'm going to go back to you. I'll go back with a 
second round of questions here. But you actually came in, you 
were in athletics and then got out of athletics. To kind of 
fill a void in your life, you got involved in the gangs and 
drugs. You were actually a recruiter. Right?
    Mr. Cole. Yes, I was.
    Mr. Hastert. What kind of kid did you go after and what 
were the signs that you saw that you said, I can get this kid 
in. What were the things, what kind of kids did you go after?
    Mr. Cole. First of all, I was already involved in the 
gangs. I played sports throughout high school, so the gang 
members respected the fact that I was still in school. Out of 
15 or 16 guys that grew up together, I was the only one still 
in school playing sports, so they respected it. So my 
activities in the gang wasn't ``the drive-bys or the big 
fights'' and things like that because I was in school.
    But the fact that I was in school and playing sports, I had 
other kids that looked up to me, so I just misused that 
popularity and I could have easily--if a kid was from a 
dysfunctional family, not necessarily a single parent family 
but if I seen that he had problems or that he needed help in 
any aspect of his life, it was easy for me to pick that guy out 
of the crowd and have him cross on over. I mean, you know, you 
look at a kid that's looking for somebody to basically be a 
role model for a kid that's dropped out of school or a kid that 
got a drug problem at an early age, those are the easiest kids. 
That was the easiest prey. If a kid was from a strong family 
background, mother and father or just mother or father was 
there and talked to them and had personal counseling with them, 
I could never get that kid. But if you had any type of 
dysfunction in your life and I could take advantage of that, it 
was easy.
    Mr. Hastert. What did the gang offer to an individual that 
he couldn't get any place else?
    Mr. Cole. Money, protection, family, sense of involvement. 
To me, growing up in New York, coming to Chicago, it's just the 
energy of a youth just misguided. If I was on a baseball team, 
I know I have to go to baseball practice when I come home from 
school but if I'm just coming home from school and I'm hanging 
out in the 'hood, you know, and they hanging out in their 'hood 
and we want to see which 'hood is the toughest, so we go. You 
send a couple of guys from one place to meet up with some guys 
from another place and you fight it out. That's how it started 
out when I grew up in New York. But then it's escalated to OK, 
my turf need money so we're going to sell drugs and I don't 
want you over here on my turf, you know. And you came over on 
my turf, we roll on your turf and it just goes back and forth, 
back and forth, back and forth.
    Mr. Hastert. So actually, the gangs and the drugs are tied 
together. The drugs become the financial----
    Mr. Cole. Most times they do. Drugs or guns.
    Mr. Hastert. And so that's what the gang sold and the turf 
comes into your sales district. Right? In a sense, what it is?
    Mr. Cole. Yes, it is.
    Mr. Hastert. How much money do you think an organization, a 
gang, a couple of kids or you define it for me, can make in a 
week selling drugs?
    Mr. Cole. Countless. A lot. Nowadays, a lot.
    Mr. Hastert. Which means what?
    Mr. Cole. I know young drug dealers, ages 20-21, that's 
millionaires. Multi-millionaires.
    Mr. Hastert. That's a lot of money.
    Mr. Cole. Yes, a whole lot.
    Mr. Hastert. And drive nice cars and do things----
    Mr. Cole [continuing]. Everything, the police paid off, the 
whole nine.
    Mr. Hastert. So, what happens then is kids see this and----
    Mr. Cole. It's like a sports figure. He'll be glamorized. 
He's the new hero. It's not the policeman, it's not the 
fireman, it's not the teacher. Everybody can't be like Mike, so 
the local drug dealer is the next closest thing to glamour that 
the kids see.
    Mr. Hastert. It gets their attention. If somebody is a 
millionaire or a multi-millionaire and you're still living and 
you're 18 or 20 years old----
    Mr. Cole. If you're walking in the neighborhoods, 
everybody, I mean everybody in the neighborhood, law officials, 
everything, talk to you as if you're a celebrity. I mean that's 
what it's become now. The drug dealers are the new heroes and 
the new celebrities because of artificial things like cars and 
gold chains and different things like that. I've seen that 
first hand.
    Mr. Hastert. Derrick, you had kind of a similar entry into 
this thing. You came out of the city of Chicago and were an 
athlete and then were involved with gangs and you did some 
recruiting, too, didn't you, as a gang recruiter?
    Mr. Smith. I didn't do too much recruiting as far as when I 
came out of Chicago. I did a little recruiting while I was in 
Chicago. Like Jerome was saying, being a sports figure, you 
know you can get a following and it's how you want to direct 
that following. Like he said, those that are weak and those 
wannabes that want to be part of you, want to do the things 
you're doing. It was easy, you know, to direct them to the 
wrong place and do the wrong things.
    But when I came to--when I went to NIU, you know, I went by 
way of a junior college and I was playing sports. When I 
stepped on campus, I was basically just trying to find somebody 
to deal drugs for me. I wasn't trying to recruit because during 
weekends I'd have the guys from Chicago come up and we'd make 
plans about what we wanted to do and the things we wanted to do 
and if we wanted to get some money some way. We had another 
dealer at NIU that was dealing and we felt that we could make 
more money if we got him out the way. They would do something 
to me and then we would take over his spot.
    Mr. Hastert. Derrick, you were recruiting people to sell 
drugs.
    Mr. Smith. Right.
    Mr. Hastert. It wasn't necessarily really gang-related.
    Mr. Smith. Basically up there it was just, you know, sell 
drugs for me and make some money, you know, because I wanted 
them to stay in school because if they stayed in school, then 
I'd have a spot at each one of the dorms where I had somebody 
dealing drugs for me.
    Mr. Hastert. So, it was your network or chain.
    Mr. Smith. Right.
    Mr. Hastert. Let me you ask you the same question. Do you 
agree with Jerome that you can make a lot of money doing this?
    Mr. Smith. Yes, you can but, you know----
    Mr. Hastert. What's the down side of that?
    Mr. Smith. The down side is death, imprisonment, you know, 
and that's what you try to tell the young people when I'm 
dealing with them. You know, I said how many drug dealers did 
you know that were living large when they were young that are 
drawing pensions now? You know, most of them you find, you can 
go to the cemetery and find or either you go to prison and find 
them. And I said that's a short route because a lot of them 
think, you know, we need money right now. My mom needs money. I 
have to take care of her. And the thing I try to express to 
them is what if something happened to you? You know, what if 
your life is taken? Then who's going to take care of your mom? 
You know, you just started thinking about the overall long 
picture which would be education and try to do something 
economically, and I think the society as a whole right now with 
the economic system, you know, situation like it is now and 
like the downsizing. You see your parents come home and they're 
laid off and you see people with college degrees and they can't 
find a job and so you're looking at them and saying, well, they 
took the educational route, you know, and now I'm looking at 
the drug dealer and he's got four new cars and a pocket full of 
money, you know. It's either/or. Which way should I go? You 
know, so it's pretty easy to decide, you know, to take the 
wrong route.
    So, you know, our big thing is just try to give them a 
balance. You know, you try to show them like I tell them like 
myself. I said I'm an individual that went to NIU, sold drugs, 
drove Corvettes around NIU, drove Mercedes around NIU. Got 
hooked on heroin, flunked out of Northern twice and now I've 
got a 3.7 grade point average and working on a doctor's degree. 
I said so, you know, you can make it. It's all the mind set 
that you have, you know, and it's another way around it. I'm 47 
years old now and the guys that I grew up with, you know, 
they're not around.
    Mr. Hastert. They're gone.
    Mr. Smith. They're gone.
    Mr. Hastert. Tell us a little about how you approach these 
people and what you're doing now.
    Mr. Smith. Basically what we're doing now, as a matter of 
fact, this summer we wrote a proposal to the mayor and we got a 
day camp for economically disadvantaged children and we have a 
basketball program which we call the Basketball Academy where 
we have rap sessions and we teach them basketball skills and 
the day camp is from 9 to 2 and the basketball is from 5 to 10 
and from 5 to 7 we have the 5th through 8th graders and from 
7:30 to 9:30 we have the high schoolers and, you know, sports 
is usually a calling card so once you get them in and then you 
try to develop a relationship because a lot of them that might 
be involved with gangs, they try to test you. You know, they 
ask you different questions to see, you know, because they know 
where I come from and what I've done, so they want to see if 
it's true so if I can answer all the questions legitimately and 
they feel like, you know, hey, he was involved, then we develop 
a relationship because I have young guys telling on other guys 
on the team. You know, Mr. Smith, he's involved with drugs now. 
You need to talk to him. You know, they tell me about other 
guys that are involved in gangs and we just have a relationship 
where when I see a person or hear something, I call that 
individual in and from the stance of the community, the young 
guys come in and talk to me and normally they probably wouldn't 
talk to most people but they feel I understand them and I sit 
down and I try to tell them, you know, all of them you can't 
save. I think that was the hardest thing for me to realize. You 
can't save everybody. Everybody is not going to listen. But at 
least you have a chance to talk to them. You give them the 
opportunity to make their own choice. You know, this way they 
see what's good. Fifty percent, they see the bad 50 percent. 
But when you're saying like when I grew up in the projects in 
Chicago, 75 percent was the bad which we called the good, drug 
use, selling drugs, and 25 percent was going to school, getting 
your books and getting an education. So normally, you know, 
everybody in the situation I was in, once you hit 13, you went 
to a gang. That was almost automatic. So with the 75 percent, 
you tend to go toward the 75 percent with a 50/50 outlook on 
each side, you know, this is your choice. You know, this is a 
decision you make and you know what's at the end of that 
tunnel. You know it's either and jail or you could be a 
positive asset in the community.
    Mr. Hastert. Mr. Skogmo, you're in treatment, right?
    Mr. Skogmo. Right.
    Mr. Hastert. Tell me very briefly, about your program and 
do you get kids or is it mostly kids or is it adults?
    Mr. Skogmo. Both. About 50 percent each, adolescents and 
adults.
    Mr. Hastert. They're referred to you by the courts or they 
come voluntarily?
    Mr. Skogmo. Not too often voluntarily. Occasionally 
families will call or physicians, but mostly schools and the 
court system.
    Mr. Hastert. Run us through. Say a kid is 16 years old and 
he's referred to you. What happens?
    Mr. Skogmo. Well, certainly it depends on the nature of the 
offsense. If it's a drug offense at school, we would provide an 
assessment just to determine the severity of the drug problem 
and we would try to get them into a treatment program if 
treatment is warranted or we have an early intervention 
program.
    Mr. Hastert. What's the difference?
    Mr. Skogmo. Early intervention is usually for people who 
are experimenting with drugs.
    Mr. Hastert. What is the prevention or intervention?
    Mr. Skogmo. Depending on the type of drug use. It's a form 
of treatment, but it's very early stage.
    Mr. Hastert. Is it counseling?
    Mr. Skogmo. Primarily, education as opposed to treatment, 
which is much more involved. One of my concerns is that early 
intervention programs are pretty much unfunded. There's 
prevention programs and there's treatment programs, but for 
kids who are experimenting and getting in trouble, you almost 
have to wait until they have a severe problem before you see 
them in treatment. The State, in this case, is really not 
funding. There are some local funds available, but as far as 
State funding, it's nonexistent.
    Mr. Hastert. Once a kid is in a treatment program, what's 
your recidivism rate?
    Mr. Skogmo. Again, depending on the nature and the severity 
of the problem, but it's as low as 8 percent and as high as 60 
percent.
    Mr. Hastert. What are the circumstances that come into 
play?
    Mr. Skogmo. Certainly, family involvement is a clear 
determinant of lower rate of recidivism. School involvement, 
support system and a network of support system. One of the 
things that we would like to try to do, since most of the 
referrals that we get are not self-referrals, we would like to 
have a little leverage, whether it's a school or whether it's 
the court system, to try to get the parents involved as much as 
possible. We have a contract, for instance, for adult offenders 
who are suspected of having drug abuse problems. We don't have 
such a program for youth offenders and I think one of the 
things that we would like to see for both early intervention 
and treatment would be a program that would mandate if we had 
recommended or if any service provider recommended family 
involvement in education, intervention and treatment of the 
child.
    Mr. Hastert. What kind of programs do you think are most 
effective? We just passed a piece of legislation out of 
Congress, Anti-Drug Coalition, and what it does is say the 
community base organizations, faith base, fraternity base 
organizations that are grassroots community prevention 
programs, probably--making an assumption, true in some cases, 
not true in others--are very effective because every community 
knows and they pull those community resources together to get 
Federal funding, although, not a lot. Well, if they get to 
throw Federal dollars to everything. But those people who are 
working in their own communities and trying to better that need 
some help and we're trying to do that. Do you see a lot of 
those programs? Are they, in your opinion, successful or are 
the professional programs better or what?
    Mr. Skogmo. I think, like most things, a combination of 
professional and activity-oriented. I think it's been talked 
about quite a bit today about activities and sports and keeping 
kids busy. I think it's, you know, certainly an essential part 
of when you're dealing with drug abuse with kids. But certainly 
the more formal treatment programs and prevention and education 
programs and getting the family involved as much as possible, 
whether it's a single parent family or a nuclear family. I 
think family involvement professionally is very important.
    Mr. Hastert. Mr. Lunsmann, you're in an anti-gang. That's 
what your profession is right now. It was very enlightening. I 
think these gentlemen talked about what the recruiting is and 
what the appeal is. It's an appeal that not a lot of kids, 
especially who maybe don't have support that they should have, 
it's pretty attractive to do that.
    If we could do three or four things, what are the three or 
four most important things that the Federal Government or State 
government or local government can do to help this problem?
    Mr. Lunsmann. No. 1, financing is always the root of every 
problem we have when we're trying to help children. We have a 
small program locally here called the Bridges Program to help 
kids get out of gangs or try to help them find the right way on 
their own with their parents. Running that program successfully 
is always having money to do it.
    Other than that, federally, I think your biggest thing that 
you can do is maybe try to help stiffen up these drug laws. 
When we have somebody getting arrested numerous times, make the 
Federal laws a little harsher. You've done it with organized 
crime members and I see the gang bangers as organized crime 
dealing drugs. I don't know if all the Rico statutes affect 
drug dealing, but that works pretty good with dealing with the 
mafia. Information like that would help, but giving the 
assistance we need and getting input from the people on the 
street that do it instead of just the people that administrate 
the money. Have some kind of system that gets the input of the 
people that deal with the drug abusers and the gang bangers 
hand to hand. Somehow, getting a system to get that information 
to you. That would help the most.
    I've been in the middle and I've been on the bottom and 
each time we get from the top, the information as far as grants 
go. Recently, I know one instance where the McHenry County 
Sheriff's Office within the last year made an arrest and they 
were going to cut funding for the prosecutor because it wasn't 
a task force situation. They were still arresting a big drug 
dealer and prosecuting a big drug dealer, but they were told by 
the people giving the grant to the county to prosecute them 
that because they weren't part of the multi-jurisdictional task 
force, they couldn't use that prosecutor who was a top notch 
drug prosecutor to prosecute this man. That kind of stuff would 
help us on the street a lot out here.
    Mr. Hastert. What we really need to do, one of the panels 
we had this morning which was more a law enforcement panel at 
that point, but they basically said they had to share resources 
and spend some time working together instead of at odds with 
each other. Would you agree with that?
    Mr. Lunsmann. A hundred percent.
    Mr. Hastert. Mr. Chavez, anything you want to add?
    Mr. Chavez. Yes. Well, it's definitely parents' 
involvement. It's crucial to have some type of educational 
programs for parents at the early intervention, even 
prevention, area. It's crucial to get the parents involved in 
their children's activities. We need more adult supervision and 
something that I would like to add is about the clothing, 
talking about gangs. We know for a fact there's a lot of new 
fashions like the baggy pants and there are a lot of kids who 
are not involved in gangs that like to wear those and sometimes 
people misunderstand that idea. If a kid is wearing the cool 
baggy pants and Nike shoes on the street, a lot of people think 
that they're all gang members and it's not true. We have to 
really know exactly what the kid is wearing every day, and the 
colors and the kind of Black Hawk shirts and all those to 
distinguish from different gangs. If you see a kid with baggy 
pants and just a white t-shirt, that doesn't mean that it's a 
gang and again, people have that misunderstanding.
    Definitely, I believe strongly in prevention. I know the 
after school programs work but again, if we don't have the 
parents getting involved in the kids' activities, again we're 
just working 30 percent of what we should be doing. And I can 
talk to kids about dangers of drugs and alcohol and as soon as 
they walk in at home, the father is totally wasted, drunk, you 
know. What good am I doing? So I would definitely ask for even 
some mandatory programs for parents whose kids are problems, 
getting involved in problems. I will definitely encourage to 
have some mandatory educational, prevention, education programs 
for parents to work with other organizations and churches and 
everything and provided in, again, English and probably Spanish 
as well because culturally speaking there's big differences 
like when we have programs for African Americans and so on and 
so forth. Definitely, it will be the biggest thing. My goal is 
to get parents involved in my kids' activities.
    Mr. Hastert. Pam, you are a parent. You've been through the 
wars probably and most heart crushing experiences on this. A 
little bit you have to reflect, I guess, in your involvement as 
a parent. When you first got involved, you didn't think there 
was a problem. What would your counseling or recommendations 
be, first of all, to people who want to get parents involved 
and second, to parents?
    Ms. Maakestad. I really don't have a real answer for you 
other than when I was going through the treatment with my 
daughter, the treatment at Rosecrantz up in Rockford was 
completely different from the treatment--I didn't learn a thing 
when I went to the Rosecrantz treatment. When I went to Laconda 
Interventions Contact and DuPage Interventions Contact. I think 
you have to be careful who you're dealing with as far as where 
you're going to get your information from because things that I 
was told in Rockford about drugs and alcohol--didn't have the 
gang influence at the time--but drugs and alcohol, a lot of the 
information that I got was wrong and it wasn't--those types of 
things weren't happening. You know, it wasn't--she wasn't in 
the normal group of things.
    Mr. Hastert. How would you get parents--what would be your 
recommendation? How do you get parents' attention to get them 
involved with their kids? You've been through it.
    Ms. Maakestad. A lot of times through the schools. The 
schools would send home papers asking the parents to be part of 
the programs.
    Mr. Hastert. Does it work?
    Ms. Maakestad. It did with me. I don't know how well it 
worked. I know with the soccer programs and softball and Little 
League and that type of thing we had a success rate with the 
parents. But, at that time they weren't doing the drug and 
alcohol programs and such as they do now.
    Mr. Hastert. Don.
    Mr. Manzullo. Thank you, Mr. Chairman. We're talking about 
after the fact here. My question is why does or how or what 
makes a kid want to get involved in using drugs and then go 
into gangs? Just step back once. Les, you work with hundreds of 
kids and we have lunch there a couple of months ago. You shared 
with me some of the stories. The reason I ask that is that my 
kids are 9, 11 and 13 and I spend a lot of time with them, as 
much time as I can, and it's quite a bit considering my 
schedule. But I'm very much concerned on what there would be in 
the mind of a child that would make that child want to get 
involved in drugs and many times gangs.
    Mr. Lunsmann. I feel that the answer to that question, if I 
knew an exact answer, I would be on the circuit across the 
United States. It's hard to determine why each kid does what 
they do, but a majority of the time it has to do with peer 
pressure or who the kids are associating with and their freedom 
and time and space. People try to tend to blame it on bad 
parenting and dysfunctional families. I've had contact with 
kids from the best families that spend time daily with their 
children and the kids still get messed up with drugs.
    Mr. Manzullo. If I could interrupt a second, this is what 
Jerome brought out, that often times people think the term 
dysfunctional families means a one parent household, and he was 
very careful to point out that the number of parents in a 
household has nothing to do with whether or not that family is 
dysfunctional.
    Mr. Lunsmann. Very correct.
    Mr. Manzullo. Well, what is it? Are parents spending too 
much time watching television or aren't they talking to their 
kids any more? What's going on in the American family today?
    Mr. Lunsmann. My personal opinion is we give our kids more 
freedom than we had. I have no reason or know no reason why we 
do that. We don't make our kids accountable any more. A lot of 
us, when we were young, our parents knew where we were at. They 
trusted us but they made us accountable for our actions. It's 
not happening any more. We've brought children to the door step 
of parents in handcuffs before and they say, well, he was over 
at so and so's house. It doesn't happen that way. They go out 
and do their thing. They lie to their parents. They're doing 
drugs at school. They're stealing from their parents to buy the 
drugs. They're stealing cars, taking them to Chicago to trade 
them for drugs. It's a totally different animal. There's no 
answer to that question.
    There are a lot of kids that are on drugs and in gangs 
because they come from a one parent family and the mother is 
working two jobs but there's as many kids that belong to two 
parent families that have siblings that turn out to be honor 
students that don't ever do drugs and they up doing drugs, 
dealing drugs, and end up in jail. It just has to do with their 
way of life and, once they start that way of life, it might 
happen because they get kicked off of the Little League team 
when they're young.
    Mr. Manzullo. Something simple.
    Mr. Lunsmann. Right. But what you have to do is figure out 
a way to deal with it at the time and have an answer for them. 
Give them ramifications. If Rosecrantz doesn't work and the kid 
gets in trouble again, make sure they know they're going to get 
in trouble.
    One thing I want to cover that nobody asked a question on 
here was recidivism--you know what I'm talking about?
    Mr. Manzullo. Repeat rate.
    Mr. Lunsmann. Yes. It's a lot. It's a lot more than 8 
percent and it's closer to 60 or 70 percent, whatever he said. 
The number of kids that we arrested in the 8\1/2\ years that I 
was on the Narcotics Task Force had to be 50 percent that had 
been in rehab at one time or the other, had been in a drug 
treatment program court ordered, and they end up back in there 
instead of going to jail. The reason that is, the judge tells 
them, next time we catch you, you're going to go to jail. 
There's no place to put juveniles. The juveniles ended up back 
on the street or in programs. If they went to jail once for a 
week, I think it would keep them from going back to treatment 
for 45 days for $4,000 a week or whatever it costs. That's my 
personal opinion.
    Mr. Hastert. Well, let me ask you gentlemen. Is the threat 
of going to jail, is that a deterrent?
    Mr. Cole. At the time, for me, it wasn't. All my friends 
was in jail and it didn't even matter to me. When I stopped 
playing football, when I was injured and I couldn't play any 
more, all my buddies that I grew up with was either dead or in 
jail so I would have got more educated. That's another thing. 
It's funny because a lot of the young kids want to go to jail. 
They want to go to jail because they go to jail at a young age, 
15 or 16, you put them in a penitentiary with guys 30, 35, 36, 
they come out on the street more wise. It's just like going 
from high school to college. They come out of the penal system 
wiser than they was when they went on the street, street 
smarter than they was before they went in. So there's got to be 
another way around this because I'm telling you. At the time, 
jail didn't scare me at all. At all. The only thing that would 
frighten me, I didn't want my mother to know I was selling 
drugs. I was more scared of her than I was any law enforcement 
agent. I mean seriously. I was more afraid of my mother than 
anything.
    Mr. Hastert. Derrick, you related another episode or 
another time that your mother was really what got you out of 
drugs. Can you kind of tell us how that happened.
    Mr. Smith. Basically, I came from a family where every 
Sunday you go to church. My mom and dad, they neither one 
smoked nor drank nor used profanity. I think I was the first 
one in the household to curse, the first one to drink, the 
first one to smoke, the first one to use drugs. So I don't know 
if it was rebellion or what but I just wanted to hang out with 
fellas. While I was growing up, I had this thing where they 
always called me Church Boy, so I guess it was rebellion that I 
was doing against them but when I got into drugs, I ended up 
doing heroin and what got me off, I was at a drug house. 
They're called shooting galleries and when you're in a shooting 
gallery you have like one outfit they call--and now they have 
AIDS and hepatitis and everything like that. Back then it 
didn't really matter. Nobody was really catching anything. Just 
getting high.
    So we were in this drug house and I got high and I had a 
vision and in this vision I saw this lady looked like she was 
kneeling by a bed and it was like it was cloudy and it was 
foggy and this was all while I was totally wasted. It was 
probably some of the best drugs I had ever had. And when I got 
through these clouds and this fog, I looked down and I went to 
touch the lady and she looked up and it was my mom and she was 
smiling and through this, it looked like everything just 
started being reciprocal. I saw my grandmother and I saw 
everybody. Seemed like everybody I loved all of a sudden, the 
vision of them popped up in my head.
    So I opened up my eyes and when I opened up my eyes, I 
wasn't even high any more. And so first thing I did, I told my 
guys I had to go and so I ran all the way back home which was 
about 15 blocks and for some reason I just told my mother I had 
to go back to DeKalb because I had a friend there and I said I 
just feel that he could take care of me. So she put me on a 
Greyhound bus and I got there and my friend picked me up and at 
that time, I would get sick because I was using drugs quite 
regularly. So while I was sick, I stayed 3 days and I mean I 
was real sick and I kept telling my friend I had to go to 
Chicago. There's no way I could take this pain, and he just 
kept saying just listen. He was reading the Bible to me. So he 
read the Bible for 3 days and 3 days I cussed at him and did 
everything else and told him I had to go and he would sit on me 
and just keep reading.
    So I don't know, I just, it was like I finally got my own 
mind back and I told him at that time I said I was going to 
make a vow to God that if I could get off drugs now, I'd never 
go back. I'd never put another needle in my arm. And that was 
in June 1977, and that was the last time that I used drugs. So 
when a lot of kids ask me what kind of rehabilitation that you 
have, how long you stay in rehab, I can't really answer that 
question. I still don't know today. I tell them, you know, it 
was the Lord doing it because when I went in that house, that 
drug house, I didn't go in that drug house looking for God. I 
went to get high and that's what I was at the time. So, you 
know, that's why basically right now and since 1977 I've spent 
all my energy and all my time trying to tell young people about 
the dangers of drugs, the dangers of gangs because it wasn't 
until then I got out of the gang.
    And a lot of kids ask me, how can you get out of gangs, and 
I say one simple method. Next time they have a meeting, you go 
to the meeting and you tell them hey, God touched my life. We 
all need to go to church Sunday morning and we need to be 
saved, I said, and they will get away from you because they 
will think you're crazy, and that's how I got out. Basically 
they were calling me Jesus Christ and stuff like that but 
nobody never bothered me again about coming to meetings and, 
you know, things I had to do in order to stay in the gang. So I 
told them that's my foolproof method, you know. Tell them let's 
go to church Sunday.
    Mr. Manzullo. I have a repeat question. Mr. Skogmo, you 
said there were three levels of treatment and one level that 
there was a hole in it that you couldn't get started because of 
lack of funding.
    Mr. Skogmo. Yes. Primarily early intervention.
    Mr. Manzullo. Explain that again because that's a need 
that's not being filled. Is that correct?
    Mr. Skogmo. Yes.
    Mr. Manzullo. Explain that again. What is that aimed at? 
What's the focus?
    Mr. Skogmo. The focus is on we get a number of referrals 
from the court system or from the school system. A kid will 
come in and he's high. Maybe the first time he's ever done 
drugs. We will get a referral to provide some services. He 
may--and probably isn't hard core at all but he's beginning to 
experiment. Early intervention is designed to intervene at that 
point to get the child hooked up with other, more healthy 
choices, to get the family involved and to allow, in our case, 
our agency to work with the school system. So it's at that 
point. It's different from prevention. Prevention is just like 
it says. It's to prevent drug abuse, and that's a great program 
and it provides all kinds of information to kids and families 
and so on.
    Treatment. Certainly treatment, I don't think anybody would 
argue that treatment is not needed but the early intervention 
program is something that kind of falls in the middle and a lot 
of times it is ignored.
    Mr. Manzullo. Denny and I have asked the same question with 
regard to getting parents involved. Years ago, if you had an 
assembly asking parents to come for a meeting on drug abuse, 
the gymnasium would be full. Today, you'll get the organizers 
to show up and perhaps one or two more parents that will come. 
What I have noticed in talking to parents and talking to kids 
and based upon my personal experience of being involved in the 
juvenile justice system for 22 years, before I was elected to 
Congress, is that parents of teens today have lived through 
drugs in school and they have the attitude that well, I lived 
through it and came out OK and my kids can do the same thing, 
not realizing, as we said earlier, that the potency of drugs--
Denny, what is it? Heroin is 90 percent pure and it used to be 
4 to 6 percent pure?
    Mr. Hastert. Yes.
    Mr. Manzullo. Ten years ago. Is that parents can become 
complacent thinking that this is just a phase through which 
their children will pass on the road to becoming a successful 
citizen knowing full well that the ultimate price could be your 
child being gunned down on the courthouse steps of a small town 
like Sycamore, leading to that horrible end. So, I don't know 
if any of you has any views on how to reach into the community? 
How do you impress upon parents the absolute necessity that 
this is a life and death struggle and that the kids that don't 
die from getting addicted to drugs many times will have their 
lives messed up until they die at a normal age. What do you do? 
What's the answer?
    Mr. Chavez. I would like to say that unfortunately a lot of 
people live in denial saying oh, it will never happen to my 
kid. No, my kid is all right. He's going to school. He's 
attending this, this and that. He plays the flute, whatever. It 
will never happen to him. When it happens, it's like the 
biggest eye opener and unfortunately it's way too late. That's 
based on my experience and what I have seen.
    Another thing that I have seen and when he was talking 
about to be afraid of the mother. The parents are not allowed 
to discipline their kids any more and a lot of concerned 
parents are telling me, I cannot tell anything to my son 
because he's telling me I'll call the police and you'll be 
arrested. So they don't know how to discipline, I'm not talking 
about violent ways to discipline a kid but now the kids are 
using that as a weapon that you do something to me or you're 
planning to, I'll call the police and you're going to get 
arrested. And again, I'm speaking of my experience with Latinos 
and immigrants. There's a big fear. It's like what am I going 
to do? I have another two kids. If I go to jail, I have to pay 
a bond. In the mean time, there's 2 or 3 days, at least 1, that 
I'm going to miss at work. That's money.
    So they're kind of--there is a lot of frustration that I 
can see in the parents that they do really want to discipline 
their kids but there's a fear because of that reason and again, 
I've seen it over and over and over and over again and a lot of 
parents call me and tell me, What do I do? How far as a parent 
I can go to discipline my kid in order not to be involved in a 
criminal activity, you know, spanking or domestic violence or 
so on and so forth. And they really don't know where the line 
of how far you can go in a discipline action to your kid. And 
the kids are very brave, you know. Go ahead. Go ahead. You 
know, I'll call the police. It's as simple as that. So then the 
parents go like, OK, OK, just don't do it again and that's it. 
That's not a way to collaborate.
    And another thing that has been happening is as long as 
nothing happens in my house, I don't care what happens to the 
neighbors.
    Mr. Manzullo. The time for parents to get involved is 
before there is a problem.
    Mr. Chavez. Right.
    Mr. Hastert. It doesn't happen.
    Mr. Manzullo. Doesn't happen.
    Mr. Hastert. Jerome, I'll give you the last shot here. 
Derrick talked just a little bit about how he'd go about 
telling kids not to get involved in this. You said you were 
afraid of your mother. I guess maybe we're all like that at one 
time or another. But what would your advice be to a kid who's 
thinking about being a gang banger or trying to get involved in 
drugs? What would your advice be to him? First off, if he's in 
a gang, how to get out and how not to get in in the first 
place.
    Mr. Cole. Well, it's pretty hard to get out of a gang once 
you're in. You can't get out. A lot of times the gang members 
will respect you if they see that you really truly are trying 
to change your life. I've seen that a lot. It happened with me.
    To prevent the kids from getting in gangs, I just hope--I 
just think that it's the programs outside of school that helps 
the most. I mean sometime you can't get--some kids can't get 
close to their parents and they need--they talk to their peers. 
They talk to their peers and they talk to counselors more so 
than they do their parents. I know it's a lot of things that I 
got friends and counselors know about me that, like I said, I 
wouldn't even tell my mother. So you do need intervention from 
church programs and school programs and YMCAs and different 
things like that. Those are the things that will help the kid, 
you know, get away from drugs and gangs. It's not impossible. 
It's possible to do but if things keep going the way they are 
now, it will be no county in America safe from gangs and drugs. 
It's almost like that now.
    Mr. Hastert. Thank you.
    I guess in closing, I'll recall a conversation I had with a 
group of kids out in Dixon, IL. They were 250 eighth graders, 
pretty vulnerable age, and they were all in this middle school 
and it was a couple of months ago right before they were ready 
to graduate and go into high school. We were talking about it 
and they asked questions about being a Member of Congress and I 
asked them a couple of questions. We were talking about drugs 
and I asked them, how many of them--there were 250 of them. How 
many of them have had their parents talk to them about drugs? 
About 40 of them raised their hand out of 250. That's less than 
20 percent. I think that's probably one of our problems today. 
Of course, you can't point your fingers at all parents and some 
are more perceptive than others, but what we need, if anything, 
is to keep this communication up and have parents get involved. 
I guess you do that through community organizations and 
community information and stuff so that they do have an 
interest in their kids and talk about it.
    One of the things that Don and I talked about earlier today 
that a lot of these parents, the parents now had gone through 
the 1970's and been through the drug cultures. They say well, I 
lived through it, so I guess my kid can live through it today. 
But it's different. Drugs are tougher and there's more stuff 
around than there was in the 1970's.
    First of all, we just want to say thanks to you folks for 
what you do day in and day out and for being here today and 
spending some time with us. What we hope to do with this 
information, we're not going to take a magic wand and make laws 
out of everything, but to give us a better guidance on where to 
go. My committee has the job of re-authorization of the ONDCP 
which is the drug czar's office this year and try to develop 
those programs. We also try to coordinate the $15 billion that 
we put into drug programs every year. Some of it's effective 
and some of it isn't. We'd like to get a better bang for our 
buck and make sure we find out what works and what doesn't 
work.
    I have taken this on as a personal challenge for myself and 
other Members of Congress have, as well, to try in 4 years to 
use our efforts so that we can drastically reduce drug use in 
this country. I think that there are six areas that we have to 
look at.
    First of all is prevention. That's home base. We've got to 
keep kids from getting involved in drugs and people from 
getting involved in drugs in the first place.
    Second is treatment. It's there and it's a problem we've 
got to face. There are those who have been involved and we've 
got to find the best way to deal with those folks and to get 
them out again. The best programs are where we don't have the 
recidivism, if that's possible.
    Third thing we have to do is what we do in our back yard: 
Law enforcement. We'll have another panel in here and they will 
talk about that today. Those people who try to keep drugs off 
the street, to apprehend those people who are the bad guys, the 
dark side. The consequences you talk about, what you've been 
involved with for a number of years. How do we do a better job 
in law enforcement? We have local police. We have county 
police. We have State police. We have the Federal police. How 
can we better coordinate the courts and the prosecutors and 
judges and how do we do a better job to work together to stop?
    The other is just the interdiction area. Drugs coming 
across our border. We sit in this country with almost 2,000 
miles of border from Texas to Baja, CA and it's a pretty open 
sieve and a lot of stuff comes across those borders and we have 
four or five agencies down there, Customs, INS, DEA and Border 
Patrol. The problem is we have people in Customs, for instance, 
that can bid for those jobs and sit on that border for 20 years 
with their brother-in-law living across the border. It's just 
ripe for corruption and we don't do a very good job at our 
bureaucracy to correct the problem.
    On the other hand, the Coast Guard and others, we have 
10,000 boats as we speak moving through the Caribbean and the 
eastern Pacific, some of them loaded down with cocaine and 
heroin and marijuana and they can't stop every boat and you 
can't stop every truck. Intelligence has to be there and we 
have to be able to stop that stuff coming in.
    I've been in Peru and I've been in Bolivia and I've been in 
Colombia. I've been in Burma where the stuff comes from, and 
I'll tell you, in the upper Gwaga Valley of Peru you can buy a 
kilo of cocoa paste. It's not refined yet. If you ever saw how 
they make cocoa paste, it would turn your stomach. They strip 
these leaves and put it in a plastic pit and put fuel oil and 
gasoline on it. Then, they put the bicarbonate of soda which 
starts the chemical reaction and they strain all that stuff out 
and you never want to put it in your body, but that's what we 
use. But, you can buy that cocoa paste for probably about--
well, the market price was $400 per kilo. Today, because of 
Fujimore and the shootdown policy in Peru, it's down to about 
$100 a kilo and farmers are walking away from their fields and 
not growing it because they can't make a living off of it. 
That's reduced cocoa growth in Peru 19 percent last year, they 
think another 25 percent. So, there's all kinds of economic 
strategies out there to stem the flow of the stuff into the 
country.
    Finally, money laundering. Guys who grow cocaine, the FDLN 
which is the gorilla movement in Colombia that used to be 
supported by the communists in Russia and Cuba now support 
themselves by growing and distributing coke and moving it up 
through the system. The cartels, drug gangs in Mexico. None of 
them would be able to afford to grow it, manufacture it, 
smuggle it, get it across the border, distribute it if they 
couldn't get the money back in their pockets. And so the whole 
money laundering piece is a big part of this, as well.
    All of those. I can't say that maybe one is any more 
important than the other. They're all balanced. We have to look 
at all of them, but especially the issue of how you stop people 
from using it, prevention is so important, and you're right on 
the front line of that. We appreciate your work. We'll try to 
take your ideas and work on them ourselves. Thank you for being 
with us and we'll dismiss you at this time. Thank you.
    At this time, I'd like to introduce our second panel. First 
of all, Bill LeFew is a former mayor and current member of the 
Communities Against Drugs. We have a DEA Agent, Mr. Michael 
Zawadzki from Chicago. We're also fortunate to have Sheriff 
Nygren before us. He's the sheriff from McHenry County. Gary 
Pack is the State's attorney for McHenry County. William Morley 
is the Assistant Special Agent in Charge of the Chicago Field 
Office of the Drug Enforcement Administration, DEA. We welcome 
him.
    In accordance with the House rules, we swear in everybody 
and I'm going to ask you to please stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
answered in the affirmative. Mr. LeFew, if you'd like to start 
off.

 STATEMENTS OF BILL LEFEW, COMMUNITIES AGAINST DRUGS; MICHAEL 
   ZAWADZKI, DEA AGENT FROM CHICAGO; SHERIFF NYGREN, MCHENRY 
  COUNTY; GARY PACK, STATE'S ATTORNEY MCHENRY COUNTY; WILLIAM 
MORLEY, ASSISTANT SPECIAL AGENT IN CHARGE OF THE CHICAGO FIELD 
            OFFICE, DRUG ENFORCEMENT ADMINISTRATION

    Mr. LeFew. Thank you, Mr. Chairman. My present title is 
McHenry County treasurer but prior to that, I was mayor of 
Harvard and prior to that, I spent about 10 years in law 
enforcement. During my term as mayor of Harvard, the New York 
Times quoted us as passing the toughest anti-gang legislation 
in the Nation as far as a city. The problem is it was only 
city-wide. Presently in the State of Illinois, a person driving 
a car without auto insurance will suffer a greater fine 
monetarily than a person involved in a gang fight in our 
county. There is an inequity there.
    Not only do we need tough anti-gang laws but, in my 
opinion, we also need education, and that's what we did during 
my term as mayor. Prior to enforcing any of our anti-gang laws, 
we required all of our gang officers to go to our local schools 
and met with every single classroom from kindergarten to 
seniors in high school to explain what gangs are, why you don't 
want to be in them, and how to get out of them.
    County-wide we were involved in the northern Illinois Gang 
Task Force, but that required us--our community--to donate an 
officer at a cost of approximately $40,000 out of our budget to 
that task force because it was not funded, and we gladly did 
that.
    It appears to me, Mr. Chairman, that we have become a 
reactive society. Instead of trying to prevent problems such as 
drug abuse and gang tactics, we react to them after they become 
so severe that we can no longer tolerate them. One of the main 
solutions that we did at Harvard and I think would be advisable 
elsewhere is we sat down with law enforcement officials and 
point blank asked them what they needed to get the job done. 
They told us they needed higher fines and they needed stiffer 
laws and they needed them to read in a certain way, and we gave 
it to them. Then, as elected officials, we got out of the way 
because we in McHenry County, as we did in Harvard, have 
professional law enforcement people, as we do in Sheriff Nygren 
and we need to make sure that they have a clean slate to deal 
with the gangs and the drugs that are in our community.
    The biggest problem facing elected officials, as of 
ourselves, is, first of all, standing up and admitting we have 
a gang problem and a drug problem. I think it's great that 
you're having these hearings. Most elected officials in McHenry 
County are very hesitant to say that. The one thing that I need 
to say loudly and clearly in McHenry County, gangs are here. 
They're not looking at McHenry. They're not thinking about 
coming to McHenry County. They're not maybe planning to get 
here. Gangs are here. They are alive in every single community 
and we need to federally take action to make sure that they 
don't cross borders and continue what they've done in our 
community.
    Thank you, Mr. Chairman.
    Mr. Hastert. Thank you.
    Sheriff.
    Mr. Nygren. Thank you. Anybody who thinks that gangs and 
drugs aren't a problem in McHenry County is simply kidding 
themselves. The county is seeing phenomenal growth. I've been 
involved in law enforcement here for about 26 years and I've 
seen all of our communities, whether it's unincorporated 
McHenry County or Algonquin or Lake in the Hills or Crystal 
Lake or Morengo. It's doesn't matter. I've seen a change. There 
was a time when law enforcement officers knew the children in 
the neighborhoods, knew the families, and there was a 
relationship which doesn't always exist now. You can go to any 
of the malls and you won't know seven-eighths of the people 
that are there, so that closeness that existed with fewer 
people is evaporating on a daily basis.
    We have taken a very proactive approach to drug enforcement 
in this county, both on a regional level through the North 
Central Narcotics Task Force on the local level, and I believe 
that if there's an area that we can succeed in, it's in local 
cooperation. The sheriff's department, all the police 
departments in McHenry County have a very close working 
relationship when it comes to gang enforcement and when it 
comes to drug enforcement.
    We recently cooperatively, through the Chiefs of Police 
Association, formed a McHenry County Gang Task Force and the 
purpose of that task force is to pair up deputies from the 
sheriff's department along with men and women, sworn officers 
from other departments, to go into specific communities where 
the problems are and work together, and we're seeing some 
positive effects from that kind of approach.
    In law enforcement, we've seen a need and we're involved in 
educational programs. Education over the long term may be the 
ultimate answer. I don't know. Changing people's attitudes so 
that they do the right thing because they want to do the right 
thing seems to be more effective than you and I standing over 
their shoulder and telling them what to do. I think education 
is one of the areas that we need to do more in.
    We have an intelligence gathering process where we gather 
information, and information is power. The sharing of 
information amongst law enforcement empowers us. It gives us an 
ability to know what's going on. These people are mobile. They 
constantly move from area to area.
    Third, is just plain law enforcement. Good law enforcement, 
whether it be drugs or gangs. Getting out there, making the 
arrest. The media helps us by publicizing those kinds of 
campaigns so that there is a price to pay and people who play 
that game know that there is, in fact, a price to pay.
    But there may be a fourth prong that we're missing and 
that's the treatment area, and the treatment area involving law 
enforcement. We began a pilot program in Crystal Lake, and what 
we decided to do was educate, gather information and enforce, 
but we also wanted to get involved at the law enforcement level 
with treatment and that was a program to bring the parents of 
youngsters who are involved in gang activity representing 
whether they've been arrested or not, somehow where we could 
articulate they were involved in gangs, together once a month 
with other parents who are having the same problem. Now, 
there's strength in numbers and when people see that they have 
the same problem that you do, they're more open than when it's 
just one on one, a police officer and a family. We're taking a 
look at that program in Crystal Lake to see how that works out. 
If we can bring the treatment people in at that level where 
parents are saying, I have a friend who has the same problem. 
They're receptive to counseling, they're receptive to 
intervention. We may have a new twist to the law enforcement 
approach which involves also the treatment aspect. We've kind 
of left that to the professionals in the past, and I think we 
need to start doing that at our law enforcement level.
    The problem isn't going to go away any time soon. I think 
what we need to do to begin to work on some of this, we have 
regional programs, we have Federal programs and we'd be in 
trouble without them, but we have to learn something from the 
gangs. We can take a pearl of wisdom from what they do. They 
create a situation where they have a turf. It's their area. 
They protect it. They fight for it. We have to create that same 
kind of territorial imperative for law enforcement. We have to 
have programs that trickle down on the local level where people 
say, OK, now you're threatening Crystal Lake, McHenry County, 
Lake in the Hills, Ogonquin, and we're going to fight back. 
When you have people fighting for their own neighborhoods, when 
you have people who can impact that kind of a battle, you're 
going to see more successes than when they get diluted out in 
the outer reaches in the Federal programs.
    So from a law enforcement standpoint, I'd like to see more 
of those billions of dollars filter down to local programs and 
filter down to local programs with cooperative efforts between 
jurisdictions. You have to work together. You have to find 
community solutions to your problems, use community resources, 
and those are the programs that I think that need to be funded 
more than they are.
    Thank you.
    Mr. Hastert. Thank you, Sheriff.
    Mr. Pack.
    Mr. Pack. Thank you. I've been prosecutor in McHenry County 
for about 17 years, so I've seen the crime in McHenry County, 
the whole county, about 17 years. About 7 years ago we could 
say there wasn't even crack in the county. We had our first 
case of crack about 7 years ago. Now it's 10 to 15 cases. So if 
you look at it statistically, I guess it's 1,000 percent 
increase. But as far as the population of McHenry County goes, 
we have increased so much and I think that the law enforcement 
has done a good job in containing a lot of this but there's 
still a major problem. We didn't have any gangs either 7 years 
ago. You can look around the surrounding counties, what they 
were like about 10 years ago. Many of them didn't take the gang 
problem seriously.
    McHenry County saw the problem coming. About 5 years ago we 
started many programs, task force to investigate the 
possibility of gangs coming and what we could do about it. We 
hired--even the State's attorney's office got involved in the 
law enforcement part of it by hiring Les Lunsmann as an 
investigator, as a link to the task force. He was a link 
between the State's attorney's office and the task force. He's 
done a wonderful job of containing gang activity. But the 
problem is there. There's still denial in McHenry County also 
of gang activity. The problem is there. Is it a major problem? 
I think it's all relative. It's a major problem to the extent 
that it is a very serious potential problem.
    The problems that we have are mostly turf fights. The gangs 
come up here. They're wannabes. They are transplants from other 
areas. They come up here and they have a turf fight. We had a 
few drive by shootings. We never had drive by shootings until 
last year or so. We've had two of them so far. Is that serious? 
Maybe to Kane County, maybe to Page County, to Cook County it's 
not that serious. To us, anything is serious involving gang 
activity.
    We also need the support of the parents. We have a lot of 
parents in some of these schools that come up and say, well, 
they don't want to adhere to this dress code. Well, it's a 
dress code that gets a lot of these kids in trouble. If the kid 
is wearing the wrong colors, wearing the wrong symbols, that 
kid could be in danger. Most of the gangs here are fights. 
They're gang fights. They're turf fights over symbols, over 
colors.
    We do not have a place for juvenile delinquents to go. A 
lot of these kids are picked up, gang fight or whatever. They 
are not detained because there is no juvenile detention center 
in McHenry County, one of the biggest counties in the State. We 
have no center. If a police officer wants to detain them, if 
the courts want to detain them, they have to go down to 
Bloomington and that takes almost a day out of an officer's 
schedule just to detain juveniles. So most of them don't take 
the criminal justice system seriously and we need to take it 
more seriously.
    Now, as law enforcement, we do treat it very seriously, 
gang activities. In fact, we consider it even an aggravating 
factor. But we also know that jail sentences are not the total 
answer. It may keep them off the streets for a while, but we 
need the treatment also. We're very strong proponents of 
treatment and intervention also. We need the prevention money. 
We need intervention money. You're heard some of these programs 
before like the Bridges. These are very necessary programs in 
our county. We do react. We have many organizations of people 
who do care. What we're lacking is money for those people who 
do care to supplement their programs.
    Mr. Hastert. Mr. Morley.
    Mr. Morley. Yes, sir, Mr. Chairman. I believe I'm the lone 
representative here from the Federal Government, and I want to 
say that we do care. Gangs have developed in virtually every 
major city in the country. Even the smaller towns are no longer 
immune to the violence and the drug activity that goes along 
with the gang activity. Some of the larger gangs have moved 
into the rural areas, as you know, and even the gangs that were 
in Chicago, the Gangster Disciples, the Vice Lords, the Latin 
Kings, all of them or those three gangs at least have moved out 
to McHenry County here and they have tentacles out in the 
county and have established a presence out here.
    The Federal Government is very aware of this problem and 
what they have done is they have established a mobile 
enforcement team to combat the gangs and drug violence that 
goes along with the gangs. It's called the Mobile Enforcement 
Team. There's 20 divisions around the country. All of the 
divisions have at least one Mobile Enforcement Team. Chicago 
itself has one. We have deployed up until this point in about 
four cities so far. We've been very successful, I believe.
    The team consists of 10 agents and a group supervisor, and 
they will, at the request of a State and/or local prosecutor or 
chief of police, depending on if it meets the requirements of 
the Mobile Enforcement Team, they will deploy to that city and 
stay there for as long as it takes to solve the problem. 
Chicago, as I said, has completed four of these deployments now 
and we're currently deployed somewhere else and we've got 
several other deployments on line but this is something that 
the Federal Government is very serious about and we believe 
that it has been very successful thus far.
    Thank you.
    Mr. Hastert. Mr. Zawadzki.
    Mr. Zawadzki. Thank you, Mr. Chairman. I am the Demand 
Reduction Coordinator, a Special Agent for the Chicago Field 
Division. I'm in attendance. I'm a Member of Congressman 
Manzullo's Anti-Drug Coalition out in Rockford. Mr. Morley is a 
Supervisory Special Agent of our front office, so he's probably 
more equipped to answer any questions. I brought him along.
    Mr. Hastert. Why don't you just tell us a little bit what 
you're doing in demand reduction.
    Mr. Zawadzki. Well, first of all, I handle the five State 
region. I have Wisconsin, Minnesota, North Dakota, Indiana and 
Illinois. We have four priority programs essentially that come 
out of Washington, DC, one of them being working with anti-drug 
coalitions, working in an advisory capacity as well as getting 
more involved in the coalition, particularly in the community 
as far as initiating drug awareness programs in school 
districts, as well as with civic organizations.
    One of the other priorities that we've been handling 
recently is anti-legalization training, training people about 
the issues of legalization, more of the con than the pro, and 
drugs in the work place also. Obviously, drugs, it's a gang 
problem. It's been a problem everywhere and it's also 
infiltrated the business groups.
    As Demand Reduction Coordinator, I'm tasked with either 
implementing the programs myself or assisting and guiding 
businesses, civic organizations and coalitions in working with 
their own programs within their own community.
    Mr. Hastert. What tactics are you using that are effective 
on drugs in the work place?
    Mr. Zawadzki. In drugs in the work place, it's specifically 
geared toward awareness for the supervisors. I guess 
historically or at least in the last 10 years since 1988 when 
the act came in, many of the problems with drugs in the work 
place had to do with the fact that many of the people who were 
supervising either 10 or more people, say for instance, are not 
in the position to recognize or don't have the training to 
recognize when somebody's showing up and working when they're 
on drugs--drugs or alcohol abuse but specifically drugs in this 
case--to try to train them what exactly to look for when it 
comes to that.
    Many of the businesses will ask for a little bit of 
background information on how they can comply with the Drug 
Work Place Act, but 95 percent of the training that I would 
give to a business--a small business or a large business, many 
of them are small businesses--would be what to look for when 
someone is on drugs.
    Mr. Hastert. What about the common sense--I use the word 
common sense--advice that you give to people that have to deal 
with folks who want to legalize drugs? What are you telling 
them or what kind of strategies are you using there?
    Mr. Zawadzki. Common, you mean just anybody that would ask?
    Mr. Hastert. Basically, the people that you deal with, you 
have to give information they can use. I call that common 
sense.
    Mr. Zawadzki. OK. When it comes to telling people about--
many of the questions that come out is that they're hearing a 
lot of information recently about the pros to legalization. One 
of the arguments is that you can't use law enforcement to 
eliminate the drug problem away so why don't we just legalize 
it and, you know, it's a simple solution to a complex problem. 
One of the responses to that is that we have to look at the 
long term ramifications of something like that. For instance, 
if we were to legalize marijuana, what are we going to do? 
We're going to have even more people walking around stoned than 
we already have now?
    If there is a common sense approach to it, normally it kind 
of goes along those lines that if someone is smoking marijuana 
now, they're breaking the law. There are some deterrent effects 
to that. Many people are confused about some of the information 
they receive about the deterrent effects that actually the 
illegality of the use has on a person.
    Specifically, when high school seniors, which you're 
getting into more of an adulthood group, are polled and they're 
asked about not so much their marijuana use but if they are 
users and they have curtailed some of their marijuana, is the 
fact that it's illegal. A little bit of a deterrent that 
they've curtailed and indeed, more than 60 percent respond yes. 
A common sense approach to someone who would argue for 
legalization more or less using the same example you used 
earlier about I lived through it, my kids live through it, you 
know, my kids should get through it also would be that can you 
imagine what the statistics would read if it was legal?
    Mr. Hastert. I mean you hear a lot of folks say, well, you 
know, during the depression and right before the depression, 
during that period of time prior to that, we outlawed alcohol 
and you had more bootleggers and you had lost taxes and you had 
legitimate business people that became outlaws and all that 
kind of stuff. How do you deal with that? How do you deal with 
that kind of information?
    Mr. Zawadzki. With the argument prohibition didn't work and 
this would be considered the same. While some of the 
information that they have about prohibition is, again, it's--
there is truth out there and then there's lies and, in order to 
work their way through it, the best way to tell them is that 
well, you know, say, for instance, before prohibition was 
repealed, 35 percent of a reduction in cirrhosis of the liver, 
health consequences. Many of the things that people don't think 
about. Much of--many people did not--much of the argument you 
get about alcohol use during prohibition was that it never 
changed. Well, as a matter of fact, it increased the use of the 
drug--well, the use of alcohol in that sense, it increased once 
it was legalized. And then that's the same argument that can 
apply to marijuana. Specifically, being the next gateway drug.
    One of the other common sense approaches to the argument 
would be in talking about the gateway system where it starts 
with tobacco and it goes from alcohol and then now marijuana. 
Essentially, we are dealing with two legal drugs and if we were 
to make marijuana legal, now we're essentially dealing with 
three legal drugs and then after that, the gateway process, we 
can start talking about cocaine. Statistics show that that 
would be the next drug. So I guess what we're saying is 30, 40, 
50 years from now, maybe then we can just go ahead and legalize 
cocaine and then so forth and so on.
    Mr. Hastert. The record of places like Switzerland hasn't 
been real good, Holland and other places.
    Mr. Zawadzki. Much of the training for the educators in the 
school districts is what I give for--I bring in a lot of the 
experiments that were done overseas. Yes.
    Mr. Hastert. Sheriff, you've had a pretty good record. Just 
recently also an apprehension of illegal drugs. You talked a 
lot about being able to work together and share resources, 
something that the district that I represent just south of 
here, our circuit has Kane and DeKalb and Kendall County 
together. Surprisingly, a couple or 2 or 3 years ago, I got 
States attorneys, judges, chiefs of police, sheriffs, together 
just to sit down and talk. To my amazement, even though they're 
in the same circuit, they never really sat down and shared 
information and talked about what they did and how they can 
share cases that move around. The thing is if things got tough 
in Elgin, those kids ended up selling drugs in Sycamore. If 
they got tough in Aurora, they ended up in Plaino and Swago and 
other places, and I'm sure it's the same situation here.
    How have you gone about to do this? How have you set this 
thing up?
    Mr. Nygren. Well, yes, you're right. It's amazing when you 
form partnerships and what you can accomplish so much more. 
It's not hard to set. It's just take a first step and say, you 
know, I'm willing to share my information. I'm willing to share 
my authority or whatever authority I may think I have with you 
and will you do the same with me for the good of the community? 
And when you start to do those things, not just in police 
circles, but out in the public. The public very much wants to 
be our eyes and our ears and our help.
    Law enforcement traditionally felt that it was a law 
enforcement function. Leave it alone. We'll do it. We have 
learned over the years that we can't. Groups like Communities 
Against Gangs want to help us. PTAs and PTOs in the schools, 
church groups, Neighborhood Watches. Traditional law 
enforcement didn't always get the job done. Community policing. 
The idea that you partner up with your community and you use 
the resources of people who do have a reason to fight the fight 
I think are going to be the most successful. And it's not hard 
at all to get other groups involved. You simply have to open 
the door and say, ``Come on in and they're more than willing to 
help out.''
    Mr. Hastert. Mr. LeFew, you're now Treasurer of McHenry 
County but you were the mayor of Harvard. I have to go back 
into my other life. I was a wrestling coach at a place called 
Yorkville. Yorkville and Harvard went around a lot.
    Mr. LeFew. Yes, I know that very well.
    Mr. Hastert. Back in the days of John Shocco and others, so 
I have a great respect for your community and what you've done. 
You said you did a lot of work while you were mayor in the 
community groups, that you actually went into the schools. Were 
the kids receptive when you did that?
    Mr. LeFew. They really were and I think it's important 
that, while our ordinance got the biggest share of the media 
attention, I think the most important thing was what we did in 
the schools and church groups and things like that. We had 
people like Les Lunsmann going, people that really knew gangs. 
You can't have someone going and talk to kids about gangs that 
really don't understand them because they'll turn them off. 
They won't listen. But we had people going in and it was very 
well received.
    Also, we had two meetings of all the parents in the 
community were invited to the schools at night and we made sure 
that we had bilingual translators.
    Mr. Hastert. Good turn out?
    Mr. LeFew. Excellent turn out. Packed the gymnasium because 
people wanted to know and at those meetings we gave the parents 
the symbols that the one lady was talking about from Sycamore 
and the colors and the listings of some of the things that 
parents needed to look for. This is a new problem. While the 
parents of today came through the drug generation, they did not 
come through the gang generation and this is brand new turf, 
brand new area for them, and we really need to do a better job 
on educating them and giving them resource materials to deal 
with.
    Mr. Hastert. Thank you.
    Congressman.
    Mr. Manzullo. Denny talked about his background before he 
became a Congressman. I sometimes see what goes on in chambers 
and appreciate the fact that he's a former wrestling coach. 
Comes in handy at times.
    You know, when I first became a Congressman back in January 
1993, I had a letter on my desk from the mayor of Rockford 
asking us to get a full-time DEA office and it wasn't too long 
after that that I met your boss, Tom Constantine, in a meeting 
before the International Relations Committee, the subcommittee 
on the Pacific on which I serve. I went up to him and I 
introduced myself and I said, you know, we have a tremendous 
need in Rockford, IL. Well, he was aware of that because the 
trek for drugs comes from Chicago, makes a turn directly north 
just outside of Rockford on its way to the Twin Cities.
    I think it was within--I know I sent him a letter the next 
day imploring him to open up a full-time DEA office. We got a 
call, I think within 2 weeks. Pam, I don't know if you were in 
the Washington office or not, but a big cheer went up when we 
got the word that they were going to get a full-time office 
there and then, of course, it's been a tremendous compliment in 
drug enforcement.
    One of the untold stories is that in our Federal district 
court, Judge Rhinehart will not fool around with people 
involved in drugs. Mike, you recall, was it last year when--how 
many young men got sentenced? Was it 16 of them? Do you recall? 
They were involved in a massive drug bust.
    Mr. Zawadzki. In Rockford?
    Mr. Manzullo. That's correct.
    Mr. Zawadzki. Yes. It was 18 people.
    Mr. Manzullo. Eighteen people. Remember, a 20 year old was 
given life by the judge.
    Mr. Zawadzki. Right.
    Mr. Manzullo. He said, if I had known I'd be going to 
prison for life, I wouldn't have gotten involved in selling 
drugs. The judge said, go tell your friends that.
    Mr. Zawadzki. Yes, right.
    Mr. Manzullo. Good bye. So we have the tremendous resource 
of a very tough Federal district judge that simply will not 
fool around with it.
    Bill, the problem that I have seen centers around parental 
involvement. You have a success story there in Harvard on how 
to get parents involved before their kids have an opportunity 
to taste the drug or to get involved in gang activity. I had to 
leave. I had to go outside. You have more constitution than I 
do, Denny, but I just had to take a break. Yes, before we get 
the coffee. But would you tell us, I mean how do you--you've 
got a small intact community there. Relatively small compared 
to the larger cities. What is it that peaks the interest of the 
parents that will get them to show up in assembly or to get 
them involved at an early stage?
    Mr. LeFew. Well, there are a certain group of parents that 
will always show up, the ones that are actively involved. 
Generally, they're not the ones--and there's always exceptions 
but generally, they're not the ones whose children you're going 
to have the problems with. So we had a challenge to us to 
figure out how to get the parents of the ones that don't show 
up. So what we did in one of our ordinances, we passed a curfew 
ordinance that said if your parent knows that you're out after 
curfew and allows you to be out after curfew, you suffer the 
same fine. So it got the parents' attention. We rarely, if 
ever, enforce that but when the parents started hearing not 
only may my child get a fine, but I may get a fine as well and 
instead of being the $20 or $30 fines for vandalism and the 
things that normally were, we've basically boosted all of our 
gang-related fines to $500.
    Vandalism by spray paint, for example, before our gang 
ordinance was $15. After our gang ordinance, it was $500. So it 
got the community's attention very quickly and they all really 
came to find out what the gang ordinance was about. And Les 
Lunsmann and the police officers and our chief did an excellent 
job of educating them on what to look for and then we were 
getting calls from parents saying, hey, my son is doing this, 
my daughter is wearing this, would you come down and talk to 
her again, and we did and we got calls of children asking for 
help, parents asking for help to get them out of the gangs. So 
it was really a very big success story in our community.
    Mr. Manzullo. Keith, the new task force that you have set 
up, how do you take that success story from Harvard and 
transmit that to the rest of the county?
    Mr. Nygren. The current task force that we started up now 
is in cooperation with the County Chiefs of Police Association. 
We all collectively saw a need to have greater resources to 
battle the gang problem throughout the county. So what we've 
done is formed together. See, the pieces exist. Sometimes you 
don't have to buy a new puzzle. You just have to fit the pieces 
that are already there together. Virtually every community in 
this country has one or two or more trained, experienced gang 
crimes officers. They're already there. They exist.
    What we have to do now is bring them together collectively 
in a group so that if we're experiencing, say, a problem in the 
Harvard area, we could take this gang task force--which, by the 
way, will be deputized county-wide so it'll have authority 
throughout the county--into Harvard and that chief of police 
will then command that unit while the unit is in his or her 
town. They'll deal with the problem, then they'll move to the 
next community like a strike force, a ready to go strike force 
that can go from community to community, has jurisdiction.
    Cost-wise, you pay for your officer while your officer is 
assigned to another community. When those other officers come 
back to your community, their chiefs of police or their 
communities pay for them so you incur no cost. You have a 
professional strike force of gang officers that's mobile and 
from hour to hour can move from community to community, and 
that's what we envision it to be. We initially started out 
working the festivals. There are a number of festivals in 
McHenry County that attract a number of people who both live in 
the area as well as out of the area that are involved in gangs. 
Over this past week end, I think our gang task force made 
contact with 72 known gang members from throughout the area. We 
made a number of arrests. We tossed a number of these people 
away out of the festivals. Told them if they were representing 
or dressing a certain way, they couldn't be there, and they 
left and it turned out very positively.
    Mr. Manzullo. How do you enforce that? If somebody is 
wearing----
    Mr. Nygren. We suggest it wouldn't be in their best 
interest to represent and they leave on their own.
    Mr. Manzullo. Just sort of a subtle thing such as we will 
be watching you for the rest of the time you're here, you'd 
better leave?
    Mr. Nygren. Exactly. If you're going to represent--it's not 
just that it's an irritant to us, but it's a danger to them. 
When you represent, you can wind up being shot by somebody.
    Mr. Manzullo. So there's really a tremendous fear on the 
part of gang members when they know they're not welcome.
    Mr. Nygren. Exactly.
    Mr. Manzullo. And you're not making an arrest and they're 
really technically not breaking the law. You just know who they 
are and you tell them to get.
    Mr. Nygren. Exactly.
    Mr. Manzullo. And it works.
    Mr. Nygren. It's effective.
    Mr. Manzullo. That's great until somebody decides there's 
something unconstitutional about it.
    Gary, would you tie into that also?
    Mr. Pack. We did tie in that the wearing of the colors and 
the symbols is what is a major problem here in our county 
because a lot of these--most of them are kids. They're not 
organized yet, but they're still here and they're kids and 
they're transplants from other areas and they come here and 
they have their colors and it's a turf war and they want to 
stake out their little turf and this is what causes the fights, 
the gang fights, sometimes drive by shootings. So I think it's 
very imperative that they know that they're not welcome here. 
But it is the wearing of these colors and the symbols which 
causes the problems. Sometimes they don't even know they're 
wearing the symbols or the colors and it does get them in 
trouble and it gets them in a fight and that's why we emphasize 
the education part of the gang symbolism.
    Mr. Manzullo. Well, Pam Maakestad said when she testified 
earlier today that her son started wearing--her son's favorite 
color always was blue and he had suggested for Christmas gifts 
that his family give him clothing with blue and black, having 
no indication that this, in fact, these were gang colors and 
this had gone on for a considerable period of time and then he 
started wearing an athletics hat with the big A up there. 
Didn't wear a Cubs hat, didn't wear a White Sox hat. Just 
happened to be the A hat and she said that this went on for a 
prolonged period of time with no indication to the parent that 
this was, in fact, a symbol of the gangs. What colors do the 
gangs wear here, Gary? We read about this here in our----
    Mr. Pack. Depends on your gang. I mean there are all 
different colors.
    Mr. Manzullo. Can you get specific? Or would that be 
beneficial not to get specific?
    Mr. Pack. No. I think the kids--we see the blue and the 
black. We'll see red and black. Those are probably the two most 
prevalent colors that we see in the area. Blue and black. Red 
and black.
    Mr. Manzullo. Why does a kid who comes from a household 
where there's no indication of any problem get involved with 
gangs? Anybody? I know if we knew the answer to that, we could 
solve this.
    Mr. Nygren. Gangs represent a family for a lot of people 
who don't have families. There's a security factor. There's 
recognition. That's why the colors are so important. When we 
went to high school, you would strive to get a letter for an 
athletic team or band or whatever it was and you were very 
proud of wearing those school colors. Well, it's no different 
with a gang member. They have the same emotional pride that we 
had when we were that age, but if you're not very successful 
academically or at school or in your church or in your 
community or athletically, you want to still be recognized and 
part of something, so the gangs fill the void for a lot of 
people who don't have those successes.
    Mr. Manzullo. I don't want this hearing to end without the 
people of McHenry County having some semblance of hope. I mean 
we've heard a lot of bad news this afternoon. Where is McHenry 
County with relation to other counties this size? Is there more 
drug presence here? More gang presence here than in other 
counties? Not that that makes it any better or any worse, but I 
want us as a result hopefully or partially a result of these 
hearings to be able to give the folks of this county some hope 
and to point us in a direction where we can try to start or 
continue the process of coordinating whatever services are 
available.
    Mr. Pack. McHenry County is by far the safest county around 
to live in and even violent crimes, we have very little violent 
crime and the drugs, when you look at the drugs that are found 
in other counties or what's being used to deliver, I mean to 
the scale, it's a much lower scale in McHenry County. We have a 
very large county population-wise. A lot of the to do was not 
even law enforcement but all the people, the social services 
that really care and there are a lot of programs that are in 
there and they do care and they're proactive. They're very 
proactive. They're not necessarily reactive. But we have a lot 
of agencies that are in there and really caring.
    When I said there's a lot of hope for McHenry County 
because these programs were instituted just because we fear of 
the future. We feared that there was going to be a gang problem 
so all these organizations came to play even before there was a 
major gang problem. The gang problem in McHenry County is more 
of a future potential problem. They are here certainly. There's 
something like 400 known gang members, but is that a lot 
compared to Kane, Lake, Will, is that a lot? I think if some of 
those cities down there had our problem, they would think they 
didn't have a problem. But as far as McHenry County standards 
go, just one gang member is a problem to us. There's a lot of 
hope because we have a lot of law enforcement here that are 
taking a very serious look and prevention.
    Mr. Hastert. Well, I just want to say Don, I certainly 
appreciate your joining me today and appreciate everybody here 
that's out fighting this fight. You're in the middle of it day 
in and day out. I commend you. I think there is some good news. 
I think part of this is communication. I think the type of 
networks that Sheriff, you set up and some of the programs, Mr. 
LeFew, that you've done certainly are helping. We work every 
day with the DEA and Tom Constantine and I have become almost 
pen pals. But anyway, there are some things we can do and 
certainly joining with the State's attorneys and all those 
districts. We had the DeKalb State's attorney and worked with 
the Kendall County and Kane County State's attorney to do these 
types of things and we need to do the type of networks. We need 
to increase the communication. It's a job that you just don't 
take one piece of it and work on it. It's where you have to do 
the whole ceramic and put every piece of mosaic in place in 
order to win the battle. We're trying to do that.
    What we would hope to do is take this information today and 
at least help that be our parameters when we start to put 
together the re-authorization for the drug czar and all those 
programs that they work and the appropriation process that 
we're beginning to go through, as well.
    Don, you have a question.
    Mr. Manzullo. One question before we conclude. If a parent 
thinks that his or her child is involved in drugs or gangs, 
what number can that parent call? What can be done? Call the 
Sheriff's Department?
    Mr. Nygren. You can certainly do that but, you know, that 
may not happen. I'm a realist. But certainly there is a crisis 
line, a 1-800 number in McHenry County that people can call.
    Mr. Manzullo. Do you know what that is?
    Mr. Nygren. Not right off the top of my head. The Youth 
Service Bureau works with youngsters. The Communities Against 
Gangs programs in each one of the communities in the county are 
certainly there to help. You could get hold of Phyllis Walters 
for that. She started all those chapters. A trusted school 
counselor is a good place to start. In fact, that's where a lot 
of kids do go initially is they go to someone in the schools 
that they trust.
    Mr. Manzullo. Are parents afraid that if they try to get 
help for their kids that there'll be a massive arrest and the 
child will be caught up and thrown in jail if they don't seek 
counseling?
    Mr. Nygren. No. I think not any more. I mean years ago that 
was the case but no, we take a more understanding, 
compassionate approach to parents coming out and asking for 
help. They should never be arrested in those cases. They should 
be helped.
    Mr. Manzullo. Thank you.
    Mr. Hastert. We'll leave the record open to include those 
numbers.
    I'll let Don have the last word. Just want to say thank you 
and this hearing is adjourned.
    [Whereupon, at 3:58 p.m., the hearing was adjourned.]

                                   - 

</pre></body></html>
